UNITED STATES OF AMERICA, Plaintiff - Appellee, v. JEREMY RANDOLPH MARTIN, Defendant Appellant.
UNITED STATES COURT OF APPEALS FOR THE FOURTH CIRCUIT
823 Fed. Appx. 225; 2020 U.S. App. LEXIS 31232
No. 20-6387
October 1, 2020, Decided
September 21, 2020, Submitted
Notice:
PLEASE REFER TO FEDERAL RULES OF APPELLATE PROCEDURE RULE 32.1 GOVERNING
THE CITATION TO UNPUBLISHED OPINIONS.
Editorial Information: Subsequent History
Rehearing denied by, Rehearing denied by, En banc United States v. Martin, 2020 U.S. App. LEXIS
34846 (4th Cir., Nov. 3, 2020)
Editorial Information: Prior History
{2020 U.S. App. LEXIS 1 JAppeal from the United States District Court for the Eastern District of North
Carolina, at Raleigh. (5:15-cr-00086-FL-1). Louise W. Flanagan, District Judge.United States v. Martin,
2016 U.S. Dist. LEXIS 51619 (E.D.N.C., Feb. 3, 2016)
Disposition:
AFFIRMED.
Jeremy Randolph Martin, Appellant, Pro se.
Counsel
Judges: Before WILKINSON and NIEMEYER, Circuit Judges, and SHEDD, Senior Circuit Judge.
s

Opinion

{823 Fed. Appx. 225) PER CURIAM:
Jeremy Randolph Martin appeals the district court's order denying his motion to modify the
conditions of his supervised release by eliminating two conditions. We have reviewed the record and
find no reversible error. Accordingly, we affirm. See United States v. McLeod, _ F.3d , , No.
18-6423, 2020 U.S. App. LEXIS 27396, 2020 WL 5049074, at *6 (4th Cir. Aug. 27, 2020) (holding
that motion to modify conditions of supervised release under 18 U.S.C. § 3583(e)(2) "is
impermissible [if] it rests on the factual and legal premises that existed at the time of [the
defendant's] sentencing"). We dispense with oral argument because the facts and legal contentions
are adequately presented in the materials before this court and argument would not aid the
decisional process.
s'

AFFIRMED

APPENDIX A

CIRHOT

1

© 2020 Matthew Bender & Company, Inc., a member of the LexisNexis Group. All rights reserved. Use of this product is subject to the restrictions
and terms and conditions of the Matthew Bender Master Agreement.

59214056

FILED

UNITED STATES DISTRICT COURT

FEB 1 1 2020

Eastern District of North Carolina
No. 5:15-CR-86-FL-l

IV,

Jfc, CLERK
fRKEONC
.DEPCLK

UNITED STATES OF AMERICA
JEREMY RANDOLPH MARTIN

MOTION; TO MODIFY
CONDITIONS OF
Motion DENIED probat: on
(18 U.i .C. § 3563 (c)j
Fed.
R Crim. P. 32.1 (c))
This the 28th dav of February . 2p20.

£%***> 't/I

Releif Sc ugh[OTlsE W. FLANAGAN, United States Dfefrict Judge
Jeremy Randolph Martin, the defendant in t& s action, moves this
* -court-for-an-order-modifying the. terics.jand conditions of his
«

.

*

** *

*"*■

probation by:

1.

Eliminating the restriction preventing him from using or

possessing a computer or other electronic communication device
without his probation officer's prior approval or using the
internet without same approval.
2.

Eliminating the requirement that he allow t*tie FBI to install

monitoring software on all of his internet connected devices and
to pay for same.
As established by the supporting Memorandum, these modifications
are ne.ccessary because:
1.

Pursuant to ^Umitdd States V. Holena 906 F.3d 288($3rd Cir.) (

• (2018)(holding that condition of supervised release.requiring, him________
not to possess or use computers or other electronic communication
devices or to use t'f® internet without his probation officer's
approval were contradictory and swept too broadly, raising First
Amendment concerns and depriving him of more liberty than was
reasonably neccessary to deter crime, protect the public, and
rehabilitate defendant under 18 U.S.C. § 3583(d)(2)«) courts can
S

APPENDIX B

Case 5:15-cr-00086-FL Document 107 Filed 02/28/20 Page 1 of 1

FILED: November 3, 2020
UNITED STATES COURT OF APPEALS
FOR THE FOURTH CIRCUIT

No. 20-6387
(5:15-cr-00086-FL-1)
UNITED STATES OF AMERICA
Plaintiff - Appellee
v.
JEREMY RANDOLPH MARTIN
Defendant - Appellant

ORDER
The court denies the petition for rehearing and rehearing en banc. No judge
requested a poll under Fed. R. App. P. 35 on the petition for rehearing en banc.
Entered at the direction of the panel: Judge Wilkinson, Judge Niemeyer, and
Senior Judge Shedd.
For the Court
/s/ Patricia S. Connor, Clerk

APPENDIX C

